               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Readiness for Package Growth –
        Customer Service Operations

         Management Advisory Report




                                          March 31, 2014

Report Number DR-MA-14-003
                                                                          March 31, 2014

                                           Readiness for Package Growth – Customer
                                                                 Service Operations

                                                         Report Number DR-MA-14-003



BACKGROUND:
Strong customer demand for goods              WHAT THE OIG FOUND:
purchased over the Internet has driven        Customer Service Operations has
growth in the package market, despite         successfully managed periods of
an otherwise declining mail market. This      package growth, employee workhours,
growing segment provides the U.S.             and scan rates at delivery units.
Postal Service an opportunity to expand       However, opportunities exist to enhance
services and increase revenue. From           readiness by improving acceptance
fiscal year (FY) 2010 to FY 2012, Postal      scan rates, decreasing customer wait
Service package revenue increased by          time in line during the holiday mailing
$1.4 billion, or 14 percent, and volume       season, enabling the Passive Adaptive
increased by 445 million pieces, or 14        Scanning System revenue-protection
percent. Package volume also                  function, and reducing the number of
increased by 13.7 percent in the first        non-barcoded packages to provide end-
3 quarters of FY 2013, compared with          to-end tracking for customers.
the same period last year.                    Overcoming these challenges could
                                              improve the Postal Service's
The Postal Service’s retail component,        competitiveness in the package
Customer Service Operations,                  business.
processes about 34 percent of its
annual package volume during the              WHAT THE OIG RECOMMENDED:
holiday mailing season (November and          We recommended the vice president,
December). About 75,000 Customer              Delivery and Post Office Operations,
Service Operations' employees work at         reinforce that Customer Service
post offices and destination delivery         Operations’ employees perform
units. Employees accept packages at           acceptance scans to support the 100
over 31,000 post offices for dispatch to      percent product visibility strategy. We
mail processing facilities and receive        also recommended the vice presidents,
them at over 24,000 destination delivery      Engineering Systems and Product
units to sort for final delivery.             Information, enable the Passive
                                              Adaptive Scanning System revenue
This report is one in a series of U.S.        protection function and implement a
Postal Service Office of Inspector            comprehensive strategy to reduce non-
General products that addresses the           barcoded packages. Finally, we
Postal Service’s readiness for growth in      recommended the vice president, Mail
the package business. Our objective           Entry and Payment Technology, define
was to evaluate operational readiness         a solution for notification and collection
for package growth in Customer Service        of shortpaid postage for packages.
Operations.
                                              Link to review the entire report
March 31, 2014

MEMORANDUM FOR:             EDWARD F. PHELAN, JR.
                            VICE PRESIDENT, DELIVERY AND POST OFFICE
                             OPERATIONS

                            MICHAEL J. AMATO
                            VICE PRESIDENT, ENGINEERING SYSTEMS

                            ROBERT CINTRON
                            VICE PRESIDENT, PRODUCT INFORMATION

                            PRITHA N. MEHRA
                            VICE PRESIDENT, MAIL ENTRY AND PAYMENT
                             TECHNOLOGY




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Management Advisory Report – Readiness for Package
                            Growth – Customer Service Operations
                            (Report Number DR-MA-14-003)

This report presents the results of our review of Readiness for Package Growth in
Customer Service Operations (Project Number 13XG026DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Readiness for Package Growth –                                                                                    DR-MA-14-003
 Customer Service Operations




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Readiness for Package Growth ....................................................................................... 2

Recommendations ........................................................................................................ 10

Management’s Comments ............................................................................................ 10

Evaluation of Management’s Comments ....................................................................... 11

Appendix A: Additional Information ............................................................................... 12

   Background ............................................................................................................... 12

   Objective, Scope, and Methodology .......................................................................... 12

   Prior Audit Coverage ................................................................................................. 14

Appendix B: Acceptance and Arrival at Unit Observation Sites ..................................... 16

Appendix C: Holiday Mailing Season Observation Sites ............................................... 18

Appendix D: Mail Acceptance Points............................................................................. 20

Appendix E: Management's Comments ........................................................................ 21
Readiness for Package Growth –                                                                       DR-MA-14-003
 Customer Service Operations



Introduction

This report presents the results of our self-initiated review of Readiness for Package
Growth in Customer Service Operations. This report is one in a series of U.S. Postal
Service Office of Inspector General (OIG) products that addresses the Postal Service’s
readiness for growth in the package business.1 Our objective was to evaluate operational
readiness for package growth in Customer Service Operations (Project Number
13XG026DR000). See Appendix A for additional information about this review.

Strong customer demand for goods purchased over the Internet has driven growth in the
package market. In an otherwise declining mail market, growth in the package segment
provides the Postal Service an opportunity to expand services and increase revenue. In
the April 2013 Five-Year Business Plan, the Postal Service projected package volume
growth of 5 to 6 percent per year through fiscal year (FY) 2017. Similarly, the Postal
Service projects that revenue from packages will grow by 6 to 7 percent annually during
this same period (see Figure1).

            Figure 1. Annual Projected Package Volume and Revenue
                          18                                                           $16.4
                                                                        $15.4
                          16                             $14.5
                                           $13.6
                          14     $12.8
                          12
            In Billions




                          10
                           8
                           6             3.9          4.1            4.4            4.6
                               3.7
                           4
                           2
                           0
                               FY 2013   FY 2014     FY 2015     FY 2016           FY 2017
                                                Volume   Revenue
          Source: Postal Service Five-Year Business Plan, April 2013.


About 75,000 Customer Service Operations employees work at over 31,000 post offices
(PO) and 24,000 destination delivery units (DDU).2 PO employees accept packages at
retail counters and dispatch them to mail processing plants for sortation. DDU employees
receive packages from mail processing plants3 to sort by routes for final address delivery.




1
  The OIG is conducting a series of reviews on various aspects of readiness for package growth.
2
  DDUs are frequently co-located with POs.
3
  DDUs also receive packages from approved companies to complete final address delivery for the "last mile" of their
shipments. For example, FedEx Corp. and United Parcel Service, Inc. use the Postal Service’s "last mile" delivery
service for their SmartPost and SurePost packages.
                                                          1
Readiness for Package Growth –                                                                     DR-MA-14-003
 Customer Service Operations



Conclusion

Customer Service Operations has successfully managed periods of package volume
growth, employee workhours, and scan rates at DDUs.4 However, opportunities exist to
improve readiness for package growth by:

   Improving acceptance scan rates at POs for packages entering the Postal Service’s
    mailstream;

   Improving customer service by reducing customer wait time in line (WTIL) during the
    holiday mailing season;

   Enabling the Passive Adaptive Scanning System (PASS) revenue protection function
    to identify additional revenue opportunities; and

   Ensuring barcodes are on all packages.5

By overcoming these challenges, the Postal Service could better manage package growth
and, by better meeting customers’ needs, improve its competitiveness in the package
business.

Readiness for Package Growth

Customer Service Operations has successfully managed periods of package volume
growth, workhours, and package scan rates at DDUs.

Mail Volume. Customer Service Operations adjusted operations to manage periods of
package volume growth. Since FY 2010, overall package volume has increased an
average of 40 percent,6 from 228 million to 319 million (see Figure 2). For the same
period, package volume7 for the 2-month holiday peak season increased an average of
38 percent,8 from 548 million to 759 million (see Figure 3). Customer Service Operations
has successfully managed package volume growth, in part, due to volume declines of
about 34 percent9 for flat mail and about 16 percent for letter mail. Customer Service
Operations management also made strategic operational decisions to accommodate
package growth. These decisions included hiring non-career employees, adjusting work
schedules, increasing overtime workhours, and coordinating shipment schedules and
volume projections with mailers.

4
  DDU employees perform an Arrival at Unit (AAU) scan and sort packages to the specific carrier routes for barcoded
packages received from mail processing facilities and customers approved for dropped shipment.
5
  According to Postal Service management, about percent of packages are not barcoded because the Postal Service
                                                                                 . Management has ongoing initiatives
to reduce the number of packages without barcodes.
6
  We calculated package volume for the non-holiday season from FY 2010 through June 2013.
7
  Holiday package volume includes the months of November and December, part of the first quarter of the fiscal year.
8
  We calculated package volume for the holiday season from FY 2010 through June 2013.
9
  Flats and letter volume includes all volume received at the DDUs, which includes carrier and Post Office box volume.
We calculated flats and letter volume from FYs 2010 to 2012.

                                                           2
Readiness for Package Growth –                                                                  DR-MA-14-003
 Customer Service Operations



                  Figure 2. Average Package Volume for FYs 2010 to 201310




     Source: Postal Service eFlash System.

             Figure 3. Average Holiday Package Volume for FYs 2010 to 2013




     Source: Postal Service eFlash System.

Workhours. The Postal Service did not experience an overall increase in Customer
Service Operations workhours11 due to package growth. Our analysis showed regular
workhours decreased by 9 percent from FY 2011 to June 2013,12 while overtime
workhours increased13 by the same percentage for the same period (see Figure 4).




10
   FY 2013 is through June 2013.
11
   We calculated Customer Service Operations' regular and overtime workhours by including labor distribution codes
(LDC) 43, 45, and 48. To be conservative, we adjusted LDC 45 and LDC 48 workhours by dividing package volume by
total mail volume in our calculation to arrive at 24 percent. We included 100 percent of LDC 43 workhours.
12
   The 9 percent is as of June 2013 and the same period for FYs 2011 and 2012.
13
   According to an OIG report, Overtime Use During Fiscal Years 2011 and 2012 (Report Number HR-AR-13-002, dated
July 5, 2013), the Postal Service stated that in any year when there are consolidations, closures, or organizational
changes, overtime will go up and the key is to reduce overall workhours.

                                                         3
Readiness for Package Growth –                                                                          DR-MA-14-003
 Customer Service Operations



                Figure 4. Customer Service Workhours, FY 2011 to June 2013




     Source: Postal Service eFlash System.

AAU Scans. Customer Service Operations consistently achieved AAU14 scan rates at
DDUs above the 98 percent goal for FY 2013 (see Figure 5). DDU employees scan
barcoded packages as part of the unit’s distribution process and sort them to carrier
routes prior to delivery. The Postal Service established AAU scan performance and
compliance measures to ensure employees are accountable for completing the AAU
scan.

                       Figure 5. National AAU Scan Rate Performance Goal




Source: Enterprise Date Warehouse (EDW) – Every Delivery Scan Report 2.

We concluded that opportunities exist to improve readiness for package growth by
increasing acceptance scan rates at POs for packages entering the Postal Service
mailstream, including during the holiday season; enabling the PASS revenue protection
function to identify additional revenue opportunities; and ensuring every package has a
barcode.

14
  An AAU scan is performed by clerks for all trackable mailpieces arriving at delivery units prior to distribution to letter
carriers.

                                                              4
Readiness for Package Growth –                                                                 DR-MA-14-003
 Customer Service Operations


Acceptance Scans. PO employees did not always scan barcoded packages received from
customer drop points, such as street collection boxes, PO lobby boxes, and the PO
receiving dock. We observed 36 POs15 and identified that employees at 22 of them (see
Appendix B) did not always have time to scan barcoded packages prior to dispatch to
mail processing plants. Postal Service officials said they did not review acceptance scan
performance at some of these selected locations because meeting dispatch time took
priority. While the Postal Service’s goal is to scan every barcode that enters the system to
achieve 100 percent visibility, its guidance16 directs employees to perform acceptance
scans for barcoded packages as time permits to meet dispatch time.

OIG analysis of the national acceptance scan rates for packages showed scan rates fell
below the FY 2013 national goal of 98 percent. From October 2012 to June 2013, the
national acceptance scan rates ranged from 90.70 percent to 92.61 percent (see
Figure 6). In October 2013, the Postal Service expanded its package reporting
measurements to include acceptance scans for Package Services, Parcel Select, and
Standard Post™17 mail. At the end of October 2013, the national acceptance scan rate
showed an incremental increase to 94.8 percent.

                Figure 6. National Acceptance Scan Rate Performance Goal




     Source: EDW – Every Delivery Scan Report 2.

Holiday Package Acceptance. The Postal Service could improve customer service by
reducing WTIL during the holiday mailing season. We judgmentally selected 66 retail
units to observe package acceptance during the holiday season18 (see Appendix C).
During our observations, the Sales and Service associates at the retail units were friendly,
barcoded and scanned flats and packages, and offered additional products and services.


15
   Of the 51 Customer Service Operations units we visited, we conducted acceptance scan observations at 36 POs and
AAU scan observations at 25 DDUs.
16
   Scanning at a Glance Delivering 100% Visibility Guide, dated August 2011.
17
   Prior to October 2013, the Postal Service measured scan performance for Priority Mail, Priority Mail Express,
First-Class Mail, and International Mail.
18
   The OIG conducted observations from December 12 through18, 2013.

                                                        5
Readiness for Package Growth –                                                                    DR-MA-14-003
 Customer Service Operations


We observed WTIL during several intervals19 in the Capital Metro, Eastern, Great Lakes,
and Southern areas20 (see Figure 7).

                        Figure 7. Number and Percentage of Observations




             Source: OIG observations.

The Postal Service standard21 is to provide a level of service that produces a WTIL of less
than 5 minutes. However, during our observations we documented 58 percent of the
WTIL to mail various packages and flat-size items was over 5 minutes (see Figure 8).




19
   We defined morning hours as opening until 11:59 a.m., afternoon hours as 12 p.m. to 3:59 p.m., evening hours as
4 p.m. to closing, and weekend hours for Saturday and Sunday as anytime during hours of operation.
20
   We visited the Appalachian, Atlanta, Baltimore, Capital, Chicago, Dallas, Fort Worth, Northern Virginia, and
Richmond districts.
21
   Handbook PO-209, Retail Operations Handbook, dated October 2012.

                                                          6
Readiness for Package Growth –                                                                       DR-MA-14-003
 Customer Service Operations


                                    Figure 8. WTIL Percentage Results




               Source: OIG observations – the abbreviation “min” refers to minutes.


During our limited observations, we noted longer wait times occurred because retail
windows were not always fully staffed during peak traffic times. Also, lobby assistants22
were not always monitoring the lines to identify customers' mailing needs. Sometimes, the
Postal Service uses a lobby assistant to manage WTIL and direct customers to
self-service alternatives.23 Lobby assistants help reduce the average customer wait time
by assisting customers before they reach the retail service counter. Postal Service policy
requires the presence of lobby assistants during peak traffic periods during the day. We
are not making a recommendation in this report because we made limited observations
and also made a previous recommendation24 to management on WTIL.

PASS. The Postal Service did not enable all technological solutions for revenue
protection in PASS.25 In 2012, the Postal Service purchased this equipment and, as of
May 2013, deployed over 1,00026 PASS units at DDUs.27 PASS was designed to improve
AAU scan rates for barcoded packages and increase mail visibility for tracking package

22
   A lobby assistant is a postal employee who helps customers prepare their retail transaction while they wait in the
lobby.
23
   Only 33 of the 66 retail units contained a self-service kiosk (SSK) enabling customers to perform some basic
transactions normally conducted at the retail counter, such as shipping packages and buying stamps.
24
   The OIG report, Retail Customer Experience Program (Report Number MS-AR-13-010, dated July 9, 2013) made a
recommendation to management to reassess the Retail Customer Experience Program by including additional
emphasis on customer satisfaction and revenue generation, including the 5-minute WTIL standard. Management
indicated in its comments it is looking at the WTIL criteria.
25
   Per an approved FY 2010 Decision Analysis Report (DAR), PASS’s primary goals are capturing AAU scans,
protecting revenue, claiming postage due for packages, and routing feedback for distribution operations. Phase I PASS
workhour costs appear at two types of postal facilities: Remote Encoding Centers and DDUs.
26
   According to management, over 2,000 units are planned for deployment by 2015.
27
   As of May 2013, the Postal Service had install dates for 1,017 units covering all seven areas, with the Pacific Area
having the most         and the Great Lakes Area the fewest         The Postal Service installed PASS at DDUs in      of
the     districts (the            District was the exception).

                                                           7
Readiness for Package Growth –                                                                        DR-MA-14-003
 Customer Service Operations


movement in the mailstream. PASS can also increase revenue protection by identifying
and notifying DDU employees of packages with potential shortpaid28 or unpaid postage
identified in the Transaction Record Processor (TRP)29 (see Figure 9).

          Figure 9. Example of PASS Process for a Potential Shortpaid Package




Source: PASS and DAR, June 2010.

According to the FY 2010 DAR,30 PASS will enhance revenue-protection efforts by
capturing additional information from multiple barcodes applied to packages destined for
DDUs.31 According to Postal Service Headquarters (HQ) management, PASS data
provides the Postal Service with information and options for assessing and collecting
shortpaid or unpaid postage and detecting fraudulent activity. For example, DDUs may
assess the data to collect shortpaid postage as postage due from the mailpiece recipient.
Alternatively, the Postal Service may use the data to notify and collect shortpaid postage
from mailers (senders) who use PC Postage and postage meters. Also, PASS provides
information on            IBI32 scans that help detect fraudulent activity.

Management also stated they are assessing system integration requirements to support
options for handling shortpaid postage; and are working to define operating policy,
processes, and procedures for shortpaid detection parameters, accounting for reclaimed
shortpaid postage, notifying and collecting shortpaid postage from mailers, and assessing
shortpaid or unpaid packages at DDUs.
28
  Mailpieces with insufficient postage.
29
  Employees capture an AAU scan by moving a package under the PASS camera. The scanned data for tracking is
immediately transmitted to the TRP system. TRP identifies whether the package has shortpaid or unpaid postage.
A key source of unpaid postage is the use of


                                  PASS can visually and verbally notify the employee to take revenue-protection action,
as necessary.
30
   A document an organization prepares to recommend an investment for approval. The DAR describes the problem or
opportunity and details the need for the expenditure. All investment projects must be justified either as an economic
opportunity or as a means of sustaining existing postal operations into the future by correcting or eliminating a problem.
31
   In prior work, we reported the Postal Service should use PASS machines to identify shortpaid parcels within a certain
threshold at delivery units and require carriers to request additional postage from the recipient at the time of delivery
(Electronic Parcel Payment Systems Internal Control Requirements, Report Number MS-AR-13-012, dated
September 27, 2013).
32
   Postage that appears in digital format on a mailpiece. Customers purchase IBI using a computer or from an
Automated Postal Center.

                                                            8
Readiness for Package Growth –                                                                       DR-MA-14-003
 Customer Service Operations



According to an OIG report,33 the Postal Service estimated about        million in
shortpaid postage loss nationwide in FY 2012 for mailpieces with visible postage.34 The
absence of the revenue-protection technology solution results in a missed opportunity to
identify and recover revenue owed to the Postal Service.

Non-Barcoded Packages. Although the Postal Service reported incremental increases in
closing the gap on non-barcoded packages, there is no comprehensive strategy to
barcode all packages. The barcode gives the Postal Service information regarding
network reliability between facilities while providing the valued visibility and end-to-end
tracking that customers have grown to expect. According to HQ management, from
January to June 2013, the Postal Service reduced the number of non-barcoded packages
by      million — from       million to    million pieces. This represents a drop from
     percent to percent. Since January 2013, the Postal Service implemented three
initiatives to further help reduce the number of non-barcoded packages.

    In January 2013, the Postal Service issued guidance35 for Customer Service
     Operations employees to apply a Label 400,36 USPS Tracking # Label (see Figure 10)
     to non-barcoded packages. The guidance states that, as time permits, employees are
     to affix a Label 400 to packages as part of the normal dispatch preparation without
     causing a delay in dispatch.

    In August 2013, the Postal Service standardized workflow for Point-of-Sale (POS)
     retail offices by replacing the postal validation imprint (PVI) tracking barcodes with
     Label 400s. POS terminals will no longer print the PVI tracking barcode label.
     Management implemented this change to ensure that every package entered through
     a POS transaction will have either a Label 400 or another barcoded Extra Service
     label, such as Insured or Signature Confirmation. The POS terminal will prompt
     employees to affix and scan a Label 400 to all packages that do not have an extra
     service barcode.

    In December 2013, the Postal Service published postal regulations in the Federal
     Register to strengthen requirements for commercial mailers. Mailers are required to
     use Intelligent Mail® package barcodes (IMpb) on all commercial parcels, and transmit
     supporting electronic documentation including address or ZIP+4® Code information.
     Full implementation of the Postal Service’s package strategy relies on the
     standardized workflow using IMpb capabilities.




33
   Shortpaid Postage – Information-Based Indicia Packages, Southern Area (Report Number MS-AR-13-011, dated
September 17, 2013).
34
   According to management, packages were a subset of mailpieces with shortpaid postage.
35
   Affixing Label 400, USPS Tracking to Non-Barcoded Packages, Standard Operating Procedures, dated March 28,
2013.
36
   The Postal Service uses Label 400 to track packages entering the Postal Service network without a Postal Service
barcode. The label is manually applied as opposed to the PVI tracking labels, which are generated at offices with retail
printers for Postal Service tracking service.

                                                            9
Readiness for Package Growth –                                              DR-MA-14-003
 Customer Service Operations


                            Figure 10. Label 400, USPS Tracking # Label




                    Source: Postal Service.

According to HQ management, the Postal Service established a cross-functional working
group to analyze and test procedures to determine by the end of FY 2014 the best
operational location and time to apply barcodes to packages. Management stated they
will work towards the100 percent barcoded goal for packages, but there will always be
packages entering the mailstream without barcodes.

Recommendations

We recommend the vice president, Delivery and Post Office Operations:

1. Reinforce that Customer Service Operations employees perform acceptance scans on
   barcoded packages to support the strategy of 100 percent package visibility.

We recommend the vice presidents, Engineering Systems and Product Information:

2. Enable the Passive Adaptive Scanning System’s revenue protection function and
   document and communicate procedural changes to employees.

3. In coordination with the vice president, Delivery and Post Office Operations, develop a
   comprehensive strategy to further reduce the percentage of non-barcoded packages.

We recommend the vice president, Mail Entry and Payment Technology:

4. Define and implement a solution for the notification and collection of shortpaid postage
   for packages.

Management’s Comments

Management agreed with our findings and recommendations and disagreed with the
operational and judgmental assumptions the OIG made for improving Postal Service
competitiveness. Management stated the OIG did not address or substantiate the costs or
financial implications associated with the recommendations.




                                              10
Readiness for Package Growth –                                              DR-MA-14-003
 Customer Service Operations


Regarding recommendation 1, management stated that Customer Service Operations'
employees may perform acceptance scans on barcoded packages when this activity will
not delay the dispatch of mail or preclude the performance of other operational duties.
Management added that they have implemented system enhancements in the Product
Tracking System to generate acceptance scans on barcoded mailpieces that do not
receive acceptance scans before handling at a mail processing facility. The target
implementation date is October 2014.

Regarding recommendation 2, management will collaborate with other functional groups
to determine the feasibility and financial implications of enabling the PASS revenue
protection function and review other alternatives. The target implementation date is
October 2014.

Regarding recommendation 3, management will continue to evaluate the costs and
benefits of achieving 100 percent barcoding of packages and has initiatives underway in
retail and with commercial customers to achieve this goal. Management stated that, over
the past 3 years, the Postal Service has steadily increased the rate of barcoded packages
from     percent in FY 2011 to       percent in FY 2013. Management added that, as of
December 2013,         percent of all packages had barcodes, representing a       percent
increase since FY 2011. The target implementation date is October 2014.

Regarding recommendation 4, management will determine the feasibility and the financial
implications of defining and implementing a solution for the notification and collection of
shortpaid postage for packages. The target implementation is October 2015.

See Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

Management noted their disagreement with the operational and judgmental assumptions
in our report that we based our conclusion for improving Postal Service competitiveness.
The OIG based the conclusion on our review and analysis of Postal Service operational
data, interviews with management, and observations at selected locations. We also
reviewed the strategies, goals, and initiatives management has established for packages
and scanning. Our assessment of this data resulted in conservative, objective
recommendations that would enhance the Postal Service's presence in the competitive
package marketplace.

The OIG considers all the recommendations significant, and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed for these recommendations. These recommendations
should not be closed in the Postal Service’s follow-up tracking system until the OIG
provides written confirmation that they can be closed.


                                            11
Readiness for Package Growth –                                                                         DR-MA-14-003
 Customer Service Operations




                                   Appendix A: Additional Information

Background

The Postal Service identified "competing for package business" as one of the core
business strategies for improving its financial position. To this end, it implemented two
Delivery Results, Innovation, Value, and Efficiency (DRIVE) initiatives37 — DRIVE
Initiative 20, Achieve 100 percent Product Visibility in FY 2011, and DRIVE Initiative 43,
Building a World-Class Package Platform in FY 2013. These two initiatives established
measurable metrics to help the Postal Service become the shipper of choice and
dominate the market for business-to-customer packages. The Postal Service shipping
and package volume grew 7 percent, from 3.5 billion pieces in FY 2012 to 3.71 billion
pieces in FY 2013.

Packages arrive in the Postal Service network at several entry points for induction into the
mailstream (see Appendix D). About 75,000 Customer Service Operations' employees
accept mail at retail counters at over 31,000 POs and conduct final mail processing at
over 24,000 DDUs. Retail employees accept and scan38 barcoded packages presented at
retail counters, collect packages from lobby drop boxes and self-service kiosks and
dispatch them to mail processing plants for sortation, and serve customers. Further, DDU
employees receive and scan barcoded packages from mail processing facilities and
customers approved for dropped shipment. Customer wait times are monitored by the
WTIL tool, which informs the Postal Service of the customer's entire experience at the
PO.

Objective, Scope, and Methodology

Our objective was to evaluate operational readiness for package growth in Customer
Service Operations. To accomplish our objective, we:

    Examined criteria for world-class package retail components, including volume,
     capacity, systems, resources, and equipment. We used competitors' metrics, such as
     acceptance processes, procedures for applying barcodes to packages, the
     customer-focused tracking process, and scanning technology.

    Reviewed package volume and workhour data in Postal Service systems for FYs 2010
     through 2013.



37
   DRIVE is a portfolio of active strategic key initiatives that have been reviewed and selected by the Postal Service’s
Executive Leadership Team (ELT) to achieve short- and long-term goals. The ELT establishes objectives, timelines,
and metrics for each initiative; conducts scheduled ELT reviews; and facilitates cross-functional collaboration and
communication.
38
   Customer Service Operations' employees use various types of equipment to scan packages: POS Terminal,
Integrated Retail Terminal, Intelligent Mail Device, Bluetooth Ring Scanner, and PASS.

                                                            12
Readiness for Package Growth –                                              DR-MA-14-003
 Customer Service Operations



   Reviewed Postal Service documentation, including applicable policies and procedures
    and prior audit reports on topics related to packages, such as scanning equipment,
    workhours, and package volume data.

   Observed employee-performed acceptance and AAU scans at 51 Customer Service
    Operations units.

   Interviewed officials at HQ and seven areas and the Dallas, Greater Indiana,
    Northland, and Fort Worth districts to discuss managing package growth, staffing, and
    scanning.

   Conducted 64 test mailings of flats and packages from December 12 through
    December 18, 2013, in the Capital Metro, Eastern, Great Lakes, and Southern areas
    to determine customer WTIL during the holiday mailing season.

We conducted this review from February 2013 through March 2014 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on January 21, 2014, and included its comments where appropriate.

To conduct this review, we used computer-processed data from eFlash, Variance
Programs, and scan performance reports. We did not test the controls over these
systems; however, we verified the accuracy of the data by confirming our analysis and
results with Postal Service managers and other postal data sources. We determined that
the data were sufficiently reliable for the purposes of this report.




                                            13
Readiness for Package Growth –                                            DR-MA-14-003
 Customer Service Operations



Prior Audit Coverage

                                                        Final           Monetary
                                                       Report            Impact
            Report Title            Report Number        Date         (in millions)
    Readiness for Package            NO-AR-14-002     1/21/2014           None
    Growth – Processing
    Capacity
    Report Results:
    The Postal Service has sufficient machine capacity to process all non-peak period
    package volume. It can process an average of about 29 million packages daily,
    which is more than sufficient to process the 24 million packages it receives.
    During the December peak period, the Postal Service augments its machine
    capacity with manual processing. The Postal Service does this to avoid having
    excess machine capacity and its associated costs for the other 11 months of the
    year. But, to meet anticipated package growth, the Postal Service could improve
    machine throughput by properly staffing machines and adjusting the mail arrival
    schedule. We recommended the Postal Service ensure package processing
    equipment is adequately staffed, standardize package processing operations
    where feasible, and adjust mail arrival schedules as necessary.


   Readiness for Package            DR-MA-14-001       12/11/2013          None
   Growth – Delivery
   Operations
    Report Results:
    The Postal Service’s Delivery Operations organization has successfully managed
    package growth from a mail volume and workhour standpoint. However,
    opportunities exist to improve readiness by implementing dynamic routing and
    modifying package compartments on cluster box units. Improving the retention of
    city carrier assistants, using parcel data, and establishing a vehicle shelving
    system will further bolster package readiness. Meeting these challenges will help
    the Postal Service manage growth and improve its competitiveness in the
    package business to better meet customers' needs. Management agreed with the
    findings and recommendations. Management noted that these issues were
    discussed during meetings with the OIG and corrective actions are being
    developed by the program offices.




                                            14
Readiness for Package Growth –                                              DR-MA-14-003
 Customer Service Operations




                                                           Final          Monetary
                                                          Report           Impact
           Report Title             Report Number          Date         (in millions)
   Retail Customer Experience
                                    MS-AR-13-010         7/9/2013           $15.4
   Program
    Report Results:
    The report concluded that the Postal Service can improve the Retail Customer
    Experience Program's effectiveness by increasing the emphasis on customer
    satisfaction and revenue-generation variables in its scoring system. The Postal
    Service’s scoring system discounts a portion of the visit that is key to customers'
    overall satisfaction — the face-to-face portion. Research from a leading customer
    experience organization indicated that positive interactions between clerks and
    customers can offset longer wait times. The Postal Service’s WTIL Chronicle
    dated May 2012 affirmed that WTIL measured alone was not predictive of actual
    customer engagement and loyalty. Management set the 5-minute WTIL standard
    in the 1990s, which does not consider other factors that have a significant impact
    on WTIL. We estimated the Postal Service could generate $15.4 million in
    additional revenue in FY 2014 if it placed greater emphasis on revenue generation
    and customer satisfaction variables in the scoring system. Management disagreed
    with our finding, recommendation, and monetary impact.


    Package Delivery Growth           MS-AR-12-003       5/4/2012           $647
    Report Results:
    The report concluded that the Postal Service’s strategies for growing its package
    business have helped it keep pace with competitors in growing domestic and
    international package markets. Although the strategies are sound, their
    effectiveness has been impacted by lack of a strategic decision-making process
    for evaluating new sale opportunities, sales tracking system shortcomings, and
    chronic Sales staff vacancies. The Postal Service can grow its package business
    by stabilizing Sales staffing levels and adding new products. Management agreed
    with our findings and recommendations and set forth its plans for corrective
    actions. Management disagreed with the monetary impact of $647 million in
    subsequent correspondence stating that, even with a reduced Sales force, it
    increased sales by focusing on higher value sales and sales execution.




                                            15
Readiness for Package Growth –                                                     DR-MA-14-003
 Customer Service Operations


             Appendix B: Acceptance and Arrival at Unit Observation Sites

                         Facility Information                               Scan Event
      District             Facility Name              Facility Type   Acceptance           AAU
1     Dallas               Brookhollow               Station                                X
2     Dallas               Cedar Hill                Post Office           X
3     Dallas               Dallas                    Post Office           X
4     Dallas               DeSoto                    Post Office           X
5     Dallas               Lancaster                 Post Office           X
6     Dallas               Richland                  Station               X                X
7     Fort Worth           Bardin                    Station               X                X
8     Fort Worth           Denton                    Post Office           X
9     Fort Worth           Green Oaks                Station               X
10    Fort Worth           Melear                    Station               X                X
11    Greater Indiana      Amo                       Post Office           X                X
12    Greater Indiana      Anderson                  Post Office                            X
13    Greater Indiana      Circle City               Station               X                X
14    Greater Indiana      Clayton                   Post Office           X                X
15    Greater Indiana      Clermont                  Branch                X                X
16    Greater Indiana      Coatesville               Post Office           X                X
17    Greater Indiana      Cumberland                Branch                X                X
18    Greater Indiana      Fillmore                  Post Office           X                X
19    Greater Indiana      Lawrence                  Branch                X                X
20    Greater Indiana      Linwood                   Station               X                X
21    Greater Indiana      Park Fletcher             Station                                X
22    Greater Indiana      Plainfield                Post Office           X
23    Greater Indiana      Rainbow                   Station                                X
24    Greater Indiana      Speedway                  Branch                                 X
25    Northland            Air Mail Center           Post Office           X
26    Northland            Anoka                     Post Office           X
27    Northland            Apple Valley              Branch                X
28    Northland            Coon Rapids               Branch                X
29    Northland            Dayton's Bluff            Station               X
30    Northland            Eagan                     Branch                                 X
31    Northland            Eastern Heights           Branch                X
32    Northland            Elk River                 Carrier Annex                          X


                                                16
Readiness for Package Growth –                                                                 DR-MA-14-003
 Customer Service Operations


                              Facility Information                                      Scan Event
       District                 Facility Name                     Facility Type   Acceptance           AAU
33     Northland                Elway                            Station               X
34     Northland                Fridley                          Branch                X
35     Northland                Fridley                          Carrier Annex                          X
36     Northland                Golden Valley                    Branch                                 X
37     Northland                Industrial                       Station               X
38     Northland                Lost Lake                        Branch                X
39     Northland                Minneapolis                      Post Office           X
40     Northland                New Brighton                     Carrier Annex                          X
41     Northland                North Saint Paul                 Carrier Annex                          X
42     Northland                Oak Park Heights                 Carrier Annex                          X
43     Northland                Rice                             Station               X
44     Northland                Riverview                        Station               X
45     Northland                Roseville                        Branch                X
46     Northland                St. Paul                         Post Office           X
47     Northland                University                       Station               X
48     Northland                Vadnais Heights                  Carrier Annex                          X
49     Northland                White Bear Lake                  Branch                X
50     Northland                Woodbury                         Branch                                 X
51     Northland                Zimmerman                        Post Office           X
Source: OIG observations at Post Office Operations facilities.




                                                           17
Readiness for Package Growth –                                                                                              DR-MA-14-003
 Customer Service Operations


                                         Appendix C: Holiday Mailing Season Observation Sites


                                                                                                                           WTIL in   Number
         Area             District                    Location                             City        State     Period
                                                                                                                           Minutes   of SSKs
1    Capital Metro   Atlanta               Buford Main Post Office                  Buford             GA      Afternoon                1
2    Capital Metro   Atlanta               Decatur Main Post Office                 Decatur            GA      Morning                  0
3    Capital Metro   Atlanta               Lithonia Main Post Office                Lithonia           GA      Morning                  0
4    Capital Metro   Atlanta               Sprayberry Branch Station                Marietta           GA      Morning                  1
5    Capital Metro   Atlanta               McDonough Main Post Office               McDonough          GA      Afternoon                1
6    Capital Metro   Atlanta               Powder Springs Main Post Office          Powder Springs     GA      Morning                  1
7    Capital Metro   Atlanta               Roswell Main Post Office                 Roswell            GA      Morning                  1
8    Capital Metro   Atlanta               Smyrna Main Post Office                  Smyrna             GA      Morning                  1
9    Capital Metro   Atlanta               Stockbridge Main Post Office             Stockbridge        GA      Morning                  1
10   Capital Metro   Atlanta               Suwanee Main Post Office                 Suwanee            GA      Afternoon                1
11   Capital Metro   Baltimore             Crownsville Post Office                  Crownsville        MD      Weekend                  0
12   Capital Metro   Baltimore             Eastport Station                         Annapolis          MD      Weekend                  1
13   Capital Metro   Baltimore             Ellicott City Main Post Office           Ellicott City      MD      Morning                  1
14   Capital Metro   Baltimore             Enchanted Forest Postal Store            Ellicott City      MD      Weekend                  0
15   Capital Metro   Capital               Callaway Main Post Office                Callaway           MD      Morning                  0
16   Capital Metro   Capital               Clinton Main Post Office                 Clinton            MD      Evening                  1
17   Capital Metro   Capital               District Heights Branch                  District Heights   MD      Afternoon                0
18   Capital Metro   Capital               Huntingtown Post Office                  Huntingtown        MD      Morning                  0
19   Capital Metro   Capital               Leonardtown Main Post Office             Leonardtown        MD      Morning                  0
20   Capital Metro   Capital               Prince Frederick Main Post Office        Prince Frederick   MD      Morning                  0
21   Capital Metro   Capital               Temple Hills Main Post Office            Temple Hills       MD      Evening                  0
22   Capital Metro   Capital               Upper Marlboro Main Post Office          Upper Marlboro     MD      Morning                  1
23   Capital Metro   Capital               Kettering Finance Station                Upper Marlboro     MD      Afternoon                0
24   Capital Metro   Capital               Largo Kettering Branch Station           Upper Marlboro     MD      Afternoon                1
25   Capital Metro   Capital               Union Station Station                    Washington         DC      Morning                  1
26   Capital Metro   Capital               Lammond-Riggs Station                    Washington         DC      Morning                  0
27   Capital Metro   Northern Virginia     Alexandria Main Post Office              Alexandria         VA      Afternoon                1
28   Capital Metro   Northern Virginia     Trade Center Station                     Alexandria         VA      Morning                  1
29   Capital Metro   Northern Virginia     Annandale Main Post Office               Annandale          VA      Morning                  1
30   Capital Metro   Northern Virginia     Dumfries Main Post Office                Dumfries           VA      Morning                  0
31   Capital Metro   Northern Virginia     Gainesville Post Office                  Gainesville        VA      Afternoon                0
32   Capital Metro   Northern Virginia     Manassas Park Branch                     Manassas Park      VA      Afternoon                0
33   Capital Metro   Northern Virginia     Merrifield Main Post Office              Merrifield         VA      Morning                  2
34   Capital Metro   Northern Virginia     Occoquan Main Post Office                Occoquan           VA      Afternoon                0
35   Capital Metro   Northern Virginia     North Springfield Branch                 Springfield        VA      Morning                  0
36   Capital Metro   Northern Virginia     Stephenson Main Post Office              Stephenson         VA      Evening                  0


                                                                               18
Readiness for Package Growth –                                                                                                DR-MA-14-003
 Customer Service Operations


                                                                                                                             WTIL in   Number
          Area             District                    Location                          City            State     Period
                                                                                                                             Minutes   of SSKs
37 Capital Metro      Northern Virginia     Winchester Main Post Office           Winchester             VA      Evening                  3
38 Capital Metro      Northern Virginia     Prince William Branch                 Woodbridge             VA      Morning                  5
39 Capital Metro      Richmond              Stafford Main Post Office             Stafford               VA      Evening                  1
40 Eastern            Appalachian           Charles Town Main Post Office         Charles Town           WV      Afternoon                0
41 Eastern            Appalachian           Martinsburg Main Post Office          Martinsburg            WV      Afternoon                1
42 Great Lakes        Chicago               Jackson Park Station                  Chicago                IL      Evening                  0
43 Great Lakes        Chicago               Lake Park Postal Store Station        Chicago                IL      Evening                  0
44 Southern           Dallas                Cedar Hill Main Post Office           Cedar Hill             TX      Evening                  1
45 Southern           Dallas                Lovers Lane Station                   Dallas                 TX      Evening                  1
46 Southern           Dallas                Dallas Main Post Office               Dallas                 TX      Weekend                  1
47 Southern           Dallas                Irving Main Post Office               Dallas                 TX      Morning                  1
48 Southern           Dallas                Lancaster Post Office                 Dallas                 TX      Morning                  0
49 Southern           Dallas                Dr Caesar A W Clark Sr Station        Dallas                 TX      Morning                  0
50 Southern           Dallas                Highland Hills Station                Dallas                 TX      Morning                  0
51 Southern           Dallas                Joe Pool Station                      Dallas                 TX      Afternoon                0
52 Southern           Dallas                Northaven Station                     Dallas                 TX      Evening                  0
53 Southern           Dallas                Northwest Dallas Station              Dallas                 TX      Evening                  0
54 Southern           Dallas                Preston Station                       Dallas                 TX      Afternoon                1
55 Southern           Dallas                Richland Station                      Dallas                 TX      Morning                  1
56 Southern           Dallas                DeSoto Main Post Office               DeSoto                 TX      Evening                  1
57 Southern           Dallas                Duncanville Main Post Office          Duncanville            TX      Evening                  1
58 Southern           Dallas                Garland Main Post Office              Garland                TX      Afternoon                0
59 Southern           Dallas                North Garland Station                 Garland                TX      Afternoon                1
60 Southern           Dallas                Midlothian Post Office                Midlothian             TX      Afternoon                0
61 Southern           Dallas                Red Oak Post Office                   Red Oak                TX      Afternoon                0
62 Southern           Dallas                The Colony Station Branch             The Colony             TX      Afternoon                0
63 Southern           Dallas                Wilmer Main Post Office               Wilmer                 TX      Morning                  0
64 Southern           Fort Worth            Pantego Finance Unit                  Arlington              TX      Afternoon                0
65 Southern           Fort Worth            Colleyville Main Post Office          Colleyville            TX      Afternoon                1
66 Southern           Fort Worth            North Richland Hills Branch           North Richland Hills   TX      Morning                  1
Source: OIG observations at Post Office Operations facilities.




                                                                             19
Readiness for Package Growth –                                                                        DR-MA-14-003
 Customer Service Operations


                                                Appendix D: Mail Acceptance Points


                                                Parcel Entry Point

                                                    Parcel Mailer


                                       Home                              Business




                                                                                                      Customer




      Collection Box           Carrier Pickup                           Business Mail   Customer Drop Ship
                                                     Retail Counter
                                                                        Entry Unit




                                                                                                             23
                                                                                                                 1

Source: Postal Service Blue Pages.



                                                                 20
Readiness for Package Growth –                                DR-MA-14-003
 Customer Service Operations


                          Appendix E: Management's Comments




                                         21
Readiness for Package Growth –        DR-MA-14-003
 Customer Service Operations




                                 22
